     Department of Homeland Security

     ��������������������������



FEMA Should Recover $302,775 of Public Assistance 

  Funds Awarded to the City of Oakland, California





OIG-14-28-D                            January 2014

                                OfFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security
                                     Wa.<hington, DC' 20528 i v.ww.oig.dhs.~ov


                                               JAN 2 9 2014

MEMORANDUM FOR:                     Nancy Ward
                                    Regional Administrator, Region IX
                                    Federal   '[rge~y Managemept Agency

FROM:                               John V. Ke
                                                         U:_/iY
                                                    .··c;;J. ·-·
                                    Assista . h spector General
                                    Offic of Emergency Management Oversight

SUBJECT:                            FEMA Should Recover $302,775 of Public Assistance Funds
                                    Awarded to the City of Oakland, California
                                    FEMA Disaster Number 1628-DR·CA
                                    Audit Report Number OIG-14-28-D

We audited Federal Emergency Management Agency (FEMA) Public Assistance grant
funds awarded to the City of Oakland, California (City), Public Assistance Identification
Number 001-53000-00. Our audit objective was to determine whether the City
accounted for and expended FEMA grant funds according to Federal regulations and
FEMA guidelines.

The California Governor's Office of Emergency Services (State), a FEMA grantee,
awarded the City $1.58 million for damages resulting from severe storms, flooding,
mudslides, and landslides from December 17, 2005, through January 3, 2006. The award
provided 75 percent FEMA funding for nine large projects and three small projects. 1 The
audit covered the period December 17, 2005, to July 19, 2010. We audited seven large
and three small projects totaling $1,529,120 (see exhibit). As of the date of this report,
the State was starting the process of reviewing the City's final grant claim.

We conducted this performance audit between May and November 2013, pursuant to
the Inspector General Act of 1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based upon our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based upon our
audit objective. We conducted this audit by applying the statutes, regulations, and
FEMA policies and guidelines in effect at the time of the disaster.




'Federal regulations in effect at the time of the disaster set the large project threshold at $57,500.
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security
    We interviewed FEMA, State, and City officials; reviewed judgmentally selected project
    costs (generally based on dollar value); and performed other procedures considered
    necessary to accomplish our objective. We did not assess the adequacy of the City’s
    internal controls applicable to grant activities because it was not necessary to
    accomplish our audit objective. However, we did gain an understanding of the City’s
    method of accounting for disaster-related costs and its procurement policies and
    procedures. We selected this grant for audit because of the potential risk that issues we
    identified in previous Office of Inspector General (OIG) reports may also exist in the
    City’s accounting and expending of FEMA funds for Disaster 1628. These OIG reports
    identified that the City’s reimbursement requests for direct project costs included
    unallowable administrative costs, unauthorized changes to approved scopes of work,
    and unsupported costs.2

    

                                             BACKGROUND 


    The City of Oakland, incorporated in 1852, is the third largest city in the San Francisco
    Bay Area and serves as a major transportation hub and trade center for the entire Bay
    Area Region known as the East Bay. The City maintains approximately 806 miles of city
    streets and 225 pedestrian pathways, and has 80 miles of designated bikeways. The
    2005 disaster caused significant damage to public infrastructure, including slide damage
    to roadways and storm drainage systems. In addition, landslide sites throughout the City
    required mitigation to prevent further damage to public infrastructure and to stabilize
    roadways and drainage systems.

    

                                          RESULTS OF AUDIT 


    The City accounted for FEMA Public Assistance grant funds on a project-by-project basis,
    as Federal regulations require. However, the City did not always follow Federal
    regulations and FEMA guidelines in spending the funds. Specifically, the City’s claim
    included the following unsupported or ineligible costs:

        •   $194,037 of unsupported labor costs,
        •   $67,173 for three small projects that the City did not complete, and
        •   $34,010 for miscellaneous ineligible costs.

    Therefore, FEMA should disallow $295,220 of unsupported or ineligible costs. FEMA
    should also deobligate $7,555 of unused funds and put them to better use. In addition,
    the State should improve its grant management procedures to (1) ensure that

    2
    See OIG reports DS-06-04 (January 2004), and DS-09-14 (September 2009).
www.oig.dhs.gov                                      2                                OIG-14-28-D
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
   subgrantees comply with Federal regulations and FEMA guidelines, and (2) review costs
   that subgrantees claim more promptly.

   Finding A: Unsupported Labor Costs

   The City could not provide adequate documentation to support $194,037 in labor costs
   it claimed for seven large projects. Cost principles at 2 CFR 225, Appendix A, section
   (C)(1)(j), stipulate that a cost must be adequately documented to be allowable under
   Federal awards. Also, 44 CFR 13.20(b)(6) requires subgrantees to support costs with
   adequate documentation including cancelled checks, paid bills, payroll detail, and time
   and attendance records.

   The City’s support for its labor costs consisted of a single line item in its costs summary
   labeled as “Salary” and a few journal voucher entries with no other detail. The City’s
   supporting documentation did not identify the name of the employee(s) who performed
   the disaster work, when they completed the work, or the number of hours they worked.
   As a result, the City could not ensure the accuracy of the costs it claimed for labor.
   Therefore, we question $194,037 the City claimed under seven large projects.

   City officials explained that because of other priorities they did not provide labor costs
   records to the State and the OIG. They also explained that the records were available,
   and were either located in an offsite City storage facility or converted to electronic
   media. City officials said that they would locate the records and make them available for
   the State’s final grant closeout review.

   FEMA and State officials said that they would review the records for eligibility during
   final review of the City’s claim.

   Finding B: Ineligible Small Projects

   The City received $67,173 for three small projects—two that it completed outside the
   FEMA approved scope of work and one that it abandoned. According to 44 CFR
   206.205(a), failure to complete small projects in accordance with FEMA’s approved
   scope of work may require the subgrantee to refund Federal payments for the projects.
   Therefore, FEMA should disallow $67,173 for the three small projects.

   City officials agreed that they had performed repairs outside the FEMA approved scope
   of work for two small projects. They stated that, during project formulation, the City
   informed FEMA that it could not follow the approved scope of work. City officials also
   agreed that, for the third small project, the City abandoned the work after learning that
   the damaged element was not its responsibility. They said that they would refund FEMA
   the $67,173 when the State initiates the grant closeout process.

www.oig.dhs.gov                                3                                      OIG-14-28-D
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   State and FEMA officials also concurred with this finding.

   Finding C: Miscellaneous Ineligible Costs

   The City’s claim under five projects included $34,010 of miscellaneous ineligible costs
   consisting of—

       •	 $26,400 under Projects 2470, 2814, 2948, 2959, and 3694 for welding 

          inspections and payroll services, including— 


                  o	 $19,800 for welding inspections. FEMA disallowed these costs during
                     project formulation because the overall allowance for engineering and
                     design services covered these inspections. FEMA approved the allowance
                     applying Curve B, which is for projects of average complexity (FEMA’s
                     Public Assistance Guide, FEMA 322, 1999, pp. 75–80). Therefore, FEMA
                     should again disallow these costs.

                  o	 $6,600 for payroll services. FEMA, during project formulation, specifically
                     disallowed the $6,600 noting that the administrative allowance covered
                     these services. Before November 2007, FEMA provided subgrantees with
                     a statutory administrative allowance that covered the necessary costs of
                     requesting, obtaining, and administering disaster assistance grants (44
                     CFR 206.228(a)(2)(ii)). Therefore, FEMA should again disallow these
                     ineligible costs.

       •	 $7,110 under Projects 2550 ($1,648), 2814 ($3,781), and 2948 ($1,681) for
          professional services. These costs are not disaster related because the City
          incurred them between February and July 2007, or 4 to 9 months after it
          completed its disaster-related work in October 2006. According to 44 CFR
          206.205(b)(1), eligible costs must relate to the performance of eligible disaster
          work. Therefore, FEMA should disallow these costs as ineligible.

       •	 $500 under Project 2550 to replace a private fence. Federal regulation 44 CFR
          206.223(a)(3) requires the City to be legally responsible for an item of work to
          qualify for disaster assistance. Therefore, the costs are ineligible because the City
          is not legally responsible for a privately owned fence.

   City officials concurred with the finding and said that they will review the costs for
   eligibility and revise their final claimed costs accordingly. FEMA and the State also
   concurred with the finding.


www.oig.dhs.gov                                    4                                 	   OIG-14-28-D
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
   Finding D: Unused Funds

   The City completed two large projects and claimed $327,999, which is $7,555 less than
   the total amount that FEMA estimated and approved for the projects (2550 and 2959).
   The City completed the work by 2007 and did not plan to claim any additional costs.
   Therefore, FEMA should deobligate the unneeded funds and put them to better use.

   City, State, and FEMA officials concurred with the finding.

   Finding E: Grant Management

   Based on the findings in this report, we conclude that the State needs to improve its
   grant management procedures for reviewing subgrantees’ closeout documentation.
   Federal regulations at 44 CFR 13.37(a)(2) require States to ensure that subgrantees are
   aware of requirements that Federal regulations impose on them. Further, 44 CFR
   13.40(a) requires grantees to manage the day-to-day operations of subgrant activity and
   monitor subgrant activity to ensure compliance with applicable Federal requirements.

   In addition, the State’s Administrative Plan for DR-1628-CA requires it to conduct the
   subgrantee’s closeout as soon as practicable. The City submitted its closeout
   documentation for the Public Assistance grant in July 2010. However, as of November 6,
   2013, the date of our exit conference (more than 3 years after the City’s submission),
   the State had not completed its review of the City’s closeout records. According to
   FEMA Standard Operating Procedure 9570.14, Section 9.2.1, the State must reconcile
   costs within 90 days from the date the City completes its projects; the State did not
   meet this FEMA guideline. Therefore, it needs to review closeout documentation from
   subgrantees promptly to ensure adherence with FEMA guidelines.


                                        RECOMMENDATIONS

   We recommend that the Regional Administrator, FEMA Region IX:

   Recommendation #1: Disallow $194,037 (Federal share $145,528) for Projects 941,
   2470, 2550, 2814, 2948, 2959, and 3694 as unsupported unless the City provides
   adequate documentation to support these costs (finding A).

   Recommendation #2: Disallow $67,173 (Federal share $50,380) as ineligible for three
   small projects (2866, 2998, and 3158) that the City either did not perform or did not
   complete according to the approved scope of work (finding B).



www.oig.dhs.gov                                5                                   OIG-14-28-D
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
   Recommendation #3: Disallow $34,010 (Federal share $25,508) for Projects 2470, 2550,
   2814, 2948, and 2959 as ineligible work (finding C).

   Recommendation #4: Deobligate $7,555 (Federal share $5,666) in unused funding from
   Projects 2550 and 2959 and put those funds to better use (finding D).

   Recommendation #5: Direct the State to review subgrantee closeout documentation
   promptly to ensure adherence with FEMA guidelines (finding E).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

   We discussed the results of our audit with City officials during our audit and included
   their comments in this report, as appropriate. We also provided a discussion draft to
   City and State officials on November 6, 2013, and to FEMA officials on October 31, 2013.
   We discussed the draft at an exit conference with City and State officials on
   November 14, 2013, and with FEMA officials on November 6, 2013. All officials generally
   agreed with the findings and recommendations.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for each recommendation. Also, please
   include the contact information of responsible parties and any other supporting
   documentation necessary to inform us about the status of the recommendations. Until
   we receive and evaluate your response, we will consider the recommendations open
   and unresolved.

   Consistent with our responsibility under the Inspector General Act, we will provide
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination.

   Major contributors to this report are Humberto Melara, Director; Louis Ochoa, Audit
   Manager; Willard Stark, Auditor in Charge; and Montul Long, Auditor.

   Please call me with any questions at (202) 254-4100, or your staff may contact
   Humberto Melara, Director, Western Regional Office, at (510) 637-1463.




www.oig.dhs.gov                               6                                     OIG-14-28-D
                                    OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security
                                                                                                            Exhibit

              Schedule of Projects Audited, Questioned Costs, and Unused Funding
                                                                      Questioned Costs
               FEMA       Project        Costs        Unsupported          Small        Miscellaneous       Unused
                                       Claimed/        Labor Costs        Project         Ineligible         Funds
   Project   Category     Award
                                                                         Work Not           Costs
  Number      of Work    Amount         Audited
                                                                        Completed
                                                       (Finding A)      (Finding B)      (Finding C)       (Finding D)
  Large Projects
    941            A    $ 376,521       $ 376,521          $ 2,661          $      0           $       0       $      0
    2470           C      114,888         221,243            17,288                0            2,700                 0
    2550           D       68,031          67,628             7,617                0            2,148               403
    2814           C      176,119         192,642            25,969                0          14,281                  0
    2948           C      207,503         226,138            24,139                0          12,181                  0
    2959           C      267,523         260,371            30,984                0            2,700              7,152
    3694           C      135,950         184,577            85,379                0                                  0
  Small Projects
    2866           D       43,749                 0              0          43,749                     0              0
    2998           C         5,150                0              0              5,150                  0              0
    3158           D       18,274                 0              0          18,274                     0              0
    Total               $1,413,708     $1,529,120          $194,037        $67,173           $34,010           $7,555




www.oig.dhs.gov                                        7                                                   OIG-14-28-D
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
                                                                   Appendix


                                      Report Distribution

   Department of Homeland Security
   Secretary
   Chief Financial Officer
   Under Secretary for Management
   Audit Liaison, DHS
   Chief Privacy Officer

   Federal Emergency Management Agency
   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Director, Risk Management and Compliance
   Chief Procurement Officer
   Audit Liaison, Region IX (Job Code G-13-030)
   Director, Recovery Division, Region IX
   Deputy Director, Recovery Division, Region IX
   Audit Liaison, Region IX
   Audit Follow-up Coordinator

   Grantee (California Governor’s Office of Emergency Services)
   Director
   Executive Assistant to the Director
   Chief of Staff
   Audit Liaison

   State (California)
   California State Auditor, Bureau of State Audits

   Subgrantee (City of Oakland, California)
   City Administrator
   Chief Financial Officer
   City Auditor
   Controller
   Director of Public Works




www.oig.dhs.gov                                8                    OIG-14-28-D
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
   Recovery Accountability and Transparency Board
   Director, Investigations, Recovery Accountability and Transparency Board

   Congressional Oversight and Appropriations Committees, as appropriate, including:
   Senate Committee on Appropriations, Subcommittee on Homeland Security
   Senate Committee on Homeland Security and Governmental Affairs
   House Committee on Appropriations, Subcommittee on Homeland Security
   House Committee on Homeland Security
   House Committee on Oversight and Government Reform

   Office of Management and Budget
   Chief, Homeland Security Branch
   DHS OIG Budget Examiner




www.oig.dhs.gov                              9                                 OIG-14-28-D
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.”

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
